DOE/IG-0494




         AUDIT                                 THE
                                   U.S. DEPARTMENT OF ENERGY'S
        REPORT                     CORPORATE HUMAN RESOURCE
                                        INFORMATION SYSTEM




                                             FEBRUARY 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                                            February 13, 2001



MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman (Signed)
                      Inspector General

SUBJECT:              INFORMATION: Audit Report on "The U.S. Department of Energy's Corporate
                      Human Resource Information System"



BACKGROUND

The Department of Energy maintains integrated human resource (HR) information systems that serve about
13,000 Federal employees and 22 personnel offices. In 1994, the Department determined that its legacy HR
information system no longer met its business information needs and embarked on a project to update and/
or replace the system. The Department initiated action to replace its legacy system with the Corporate
Human Resources Information System (CHRIS) in 1996.

The Department envisioned that CHRIS would be fully integrated and would serve as its primary HR
information system. It expected that savings of about $9.6 million over six years would accrue as a result
of implementing CHRIS. During 1998, the Department implemented the personnel portion of CHRIS and
amended the project to include integration of payroll functions. The training portion of CHRIS became
operational during 1999. The currently deployed modules of the CHRIS system are based on an
extensively modified commercial-off-the-shelf application. Through September 2000, the Department had
spent about $11.6 million for CHRIS development.

Under existing Federal mandates, Department elements are required to follow a structured approach when
developing and implementing automated systems. This includes building effective security safeguards and
internal controls into the system, accurately tracking project costs, and examining opportunities to
reengineer inefficient business processes. In addition, HR and payroll systems are subject to system design
requirements imposed by the Joint Financial Management Improvement Program.

The objective of our audit was to determine whether CHRIS, as currently structured, satisfies the
Department's goals and objectives and whether Federal and Departmental requirements are being met as
part of this process.
RESULTS OF AUDIT

Despite a number of operational improvements, CHRIS had not satisfied all Federal and Departmental
requirements and had not met certain Departmental goals and objectives. For example,

       • Several system development activities were inadequate or had not been completed;

       •   Departmental initiatives to reengineer certain HR processes and eliminate over 50 redundant
           systems had not been satisfied; and

       •    CHRIS had computer security weaknesses that increased the risk of unauthorized access or
           malicious damage to the system.

The audit disclosed that the Department did not adhere to project planning requirements for system
development projects. As a consequence, full implementation of CHRIS is not anticipated until Fiscal Year
2005, six years after the original forecast. Further, as currently projected, the final total cost of CHRIS will
be about $20.4 million or 155 percent greater than originally estimated. Because of implementation delays
and projected cost overruns, it is unlikely that the Department will achieve the project's original estimate of
approximately $9.6 million in savings over six years.

In developing and implementing CHRIS, the Department has been successful in implementing a number of
improvements over the previous HR system. It had, for example, reduced paperwork; improved operational
efficiencies; and, provided both management and staff with improved reporting capability by allowing them
to generate more timely reports and data queries. Under CHRIS, users have direct access to real-time HR
information, rather than having to submit information requests for batch processing, thus providing
managers with the information necessary to make sound HR decisions. The Department also developed the
Employee Self Service system that allowed users to view and update some personnel information online.

The Office of Inspector General supports the use of commercial off-the-shelf software applications as a cost
effective alternative to custom software development. While we recognize that there are many challenges
associated with the implementation of such applications, adherence to systems development requirements
and best practices is essential for successful deployment. The audit report included recommendations
designed to aid the Department in satisfying its objective of deploying a fully integrated human resources/
payroll system. The lessons learned from the development of a system as important as CHRIS should be
used to avoid future problems in software development.
MANAGEMENT REACTION

Management generally concurred with our findings and recommendations and identified a number of
corrective actions.

Attachment

cc:    Under Secretary for Nuclear Security/Administrator for Nuclear Security
       Acting Director, Office of Security and Emergency Operations
       Acting Chief Information Officer
       Chief Financial Officer
       Acting Director, Office of Management and Administration
       Acting Director, Office of Human Resources Management
CORPORATE HUMAN RESOURCE INFORMATION SYSTEM



TABLE OF
CONTENTS

              Overview


              Introduction and Objective………………………………………..1

              Conclusions and Observations…………………………………..2


              Opportunities For Project Improvement


              Details of Findings………………………………………………...4

              Recommendations and Comment………………………………10



              Appendices


              1. Scope and Methodology……………………………………..11

              2. Related Office of Inspector General,
                   General Accounting Office and Other Reports………..13

              3. Management Comments …………………………………...15
Overview


INTRODUCTION AND   The Department of Energy (Department) is required to maintain
OBJECTIVE          integrated human resource (HR) information systems that serve about
                   13,000 employees and 22 personnel offices. In 1994, the Department
                   determined that its legacy human resources information system no
                   longer met its business information needs and conducted an analysis of
                   alternatives to update and/or replace the system. The Corporate Human
                   Resource Information System (CHRIS) project, implemented in 1996,
                   initially sought to replace the personnel portion of the legacy
                   centralized payroll/personnel system and over 80 separate stand-alone
                   systems with a Year 2000 compliant, single integrated human resources
                   management information system. Subsequently, in 1998, the project
                   was amended to include the replacement of the legacy payroll system to
                   create an integrated HR/payroll system.

                   The Department's primary goal for CHRIS was that it would be fully
                   integrated and would serve as its corporate HR information system for
                   Federal personnel. The Department envisioned that development
                   efforts would include a number of reengineering initiatives that would
                   result in various business process improvements. Integrated system
                   functions were to include personnel, training, time and attendance,
                   payroll, and labor distribution. The Department projected savings of
                   approximately $9.6 million over six years as a result of implementing
                   CHRIS. Specifically, the CHRIS project was to accomplish the
                   following objectives:

                        • enhance operational efficiencies,
                        • reduce paperwork,
                        • eliminate redundant information systems,
                        • eliminate non-value-added work by human resource
                          professionals, and
                        • provide the information necessary to make sound human
                          resource decisions.

                   The currently deployed modules of the CHRIS system are based on an
                   extensively modified commercial-off-the-shelf (COTS) application.
                   The Department elected to phase in CHRIS by first implementing the
                   personnel related portion of the system in 1998, which replaced the
                   Department's legacy personnel system. The CHRIS training module
                   replaced the Department's training system in October 1999. In its first
                   phase, the personnel portion of the system performed a number of
                   functions, including capturing information for personnel actions and
                   initiating changes in employee payroll information and thrift savings




Page 1                                                        Introduction and Objective
                 plans. The system also processed workforce information used for
                 reporting to the Office of Personnel Management (OPM). The system
                 database was located at the National Energy Technology Laboratory in
                 Morgantown, West Virginia, and was accessible to Federal employees
                 at all Departmental sites through client/server technology. The
                 Department invested an estimated $11.6 million through September
                 2000 for CHRIS development.

                 Generally, Departmental elements are required to follow a structured
                 approach, consistent with Federal and Departmental requirements,
                 when developing and implementing automated systems. They are also
                 required to build effective security safeguards and internal controls into
                 systems, accurately track project costs, and examine opportunities to
                 reengineer inefficient business processes. In addition, HR and payroll
                 systems are subject to system design requirements imposed by the Joint
                 Financial Management Improvement Program.

                 The objective of our audit was to determine whether CHRIS satisfied
                 Federal and Departmental requirements and was meeting Departmental
                 goals and objectives.

CONCLUSION AND   Despite a number of operational improvements, CHRIS had not
OBSERVATIONS     satisfied all Federal and Departmental requirements and had not met
                 certain Departmental goals and objectives. For example, system
                 development activities such as the evaluation of selected COTS
                 products and tracking of development and implementation costs were
                 inadequate or had not been completed. Departmental goals to
                 reengineer certain HR processes and eliminate redundant systems had
                 also not been satisfied. For instance, a number of processes had not
                 been completely automated as planned, anticipated levels of system
                 integration had not been achieved, and many redundant systems
                 remained in use. Furthermore, CHRIS had computer security
                 weaknesses that increased the risk of unauthorized access or malicious
                 damage to data, programs or system software. CHRIS development
                 and implementation efforts have been adversely affected because the
                 Department did not adhere to project planning requirements and best
                 practices for system development projects. As a consequence, full
                 implementation of CHRIS is not anticipated until Fiscal Year 2005, six
                 years after the original forecast. The total cost to fully implement
                 CHRIS is also expected to be about $20.4 million, 155 percent greater
                 than originally estimated. Because of implementation delays and
                 projected cost overruns, it is unlikely that the Department will achieve
                 the project's original estimate of approximately $9.6 million in savings
                 over six years.


Page 2                                                                  Conclusions and
                                                                          Observations
         To its credit, the Department has been successful in implementing a
         number of improvements over the previous HR system that have
         reduced paperwork and improved operational efficiencies. The
         Department's development efforts have provided both management and
         staff with improved reporting capability by allowing them to generate
         more timely reports and data queries. Users have direct access to real-
         time HR information, rather than having to submit information requests
         for batch processing, thus providing managers with the information
         necessary to make sound HR decisions. The Department had also
         developed the Employee Self Service system that allowed users to
         access some personnel information online. Employees can view
         personal and employment information, identify and register for certain
         training courses, and update some personnel data. Employees can also
         view their earnings statement and personal benefits and make updates
         to certain payroll data online.

         As indicated in our recent report on corporate-level systems, we support
         the deployment of such systems as a method of promoting efficiencies
         and eliminating duplicative, site-specific information systems. While
         we recognize that there are many challenges associated with the
         implementation of major commercial off-the-shelf applications,
         adherence to systems development requirements and best practices is
         essential for successful deployment. We have proposed
         recommendations that we believe will aid the Department in satisfying
         its objective of deploying a fully integrated human resources/payroll
         system.

         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.



                                                        (Signed)
                                               Office of Inspector General




Page 3                                                        Conclusions and
                                                                Observations
Opportunities for Project Improvement


CHRIS Did Not Meet     CHRIS had not satisfied all Federal and Departmental requirements for
Certain Requirements   corporate HR/payroll systems and had not met certain Departmental
and Goals              goals and objectives. For example, required system development
                       activities such as the evaluation of selected COTS products and
                       tracking of development and implementation costs were inadequate or
                       had not been completed. Departmental goals to reengineer certain HR
                       processes and eliminate redundant systems had also not been satisfied.
                       For instance, a number of processes had not been completely automated
                       as planned, anticipated levels of system integration had not been
                       achieved, and many redundant systems remained in use. Furthermore,
                       CHRIS had computer security weaknesses that increased the risk of
                       unauthorized access or malicious damage to data, programs or systems
                       software.

                                     Development and Implementation Activities

                       The Department began the development of CHRIS without completely
                       evaluating the COTS product selected for the project. While certain
                       product evaluations were conducted, the Department did not perform a
                       detailed analysis of the selected software's shortcomings or gaps in
                       meeting its business process requirements. These analyses can be done
                       by testing pilot software or conducting software simulations or
                       prototype implementations and are required to ensure that the
                       organization can accept the gaps without degrading performance.
                       Despite the fact that the version of the selected COTS product had not
                       been successfully implemented in other Federal settings, Departmental
                       officials proceeded with development efforts without fully
                       understanding the extent of modifications required for Federal sector
                       applicability. For example, extensive and costly modifications and
                       supplemental software were required to make the application acceptable
                       for Departmental use. These modifications and supplemental software
                       cost over $6 million.

                       The Department also purchased the payroll module, which includes
                       payroll, time and attendance, and labor distribution, of the same COTS
                       product without first determining whether the product would meet its
                       needs. Following the decision to incorporate payroll in the CHRIS
                       project rather than outsourcing that function, the Department acquired
                       the payroll module in 1998 to replace its legacy payroll application. The
                       Department did not complete the required analysis of the payroll
                       module's features and capabilities until approximately one year after the
                       date of acquisition. Had the results of that study been available prior to
                       acquisition, the Department would have learned that this COTS product
                       would not support its payroll requirements without extensive


Page 4                                                                       Details of Finding
         modification. Based on that analysis, Departmental officials informed
         us that they are considering foregoing implementation of the payroll
         module in favor of outsourcing payroll operations to a Federal cross
         service provider.

         The Department was also unable to maintain required visibility and
         control over the financial impact of CHRIS investment decisions
         because it did not accurately track development and implementation
         costs. Management officials indicated that cost data may have been
         incomplete and were difficult to track for a number of different reasons.
         For example, initial project funding was voluntary and sometimes
         consisted of financial contributions and donated services from various
         Departmental components. Furthermore, management confirmed that
         project costs were not tracked in a centralized manner and initially
         reflected only contract costs. Staffing resources expended in the early
         stages of the project were not tracked. Without accurate, up-to-date
         cost information, management could not update the project's cost/
         benefit analysis and lacked the information essential for evaluating
         whether additional CHRIS related investments were cost-effective.

                              Meeting Goals and Objectives

         While the Department had made progress in satisfying a number of its
         original goals and objectives, it had not completed its initiative of
         reengineering its HR workflow process. For example, the CHRIS
         project had not implemented automated workflow processing such as
         electronic routing and approval of personnel and training related
         actions. While certain aspects of these processes had been automated,
         manual intervention was still required in certain areas. For instance, the
         system did not have electronic signature capability; hence, individuals
         were required to manually certify personnel actions. Furthermore,
         requests for personnel actions and employee training requests could not
         be routed and tracked electronically. Moreover, individual
         development plans were prepared manually rather than electronically.

         The Department also had not achieved its goal of establishing CHRIS
         as a Departmentwide, fully integrated HR/payroll system as specified in
         its 1998 Integrated Project Plan. Although certain links with other
         systems existed, CHRIS was not fully integrated with the Department's
         payroll system or its other financial management systems. In addition,
         the Department had not integrated CHRIS with collateral or supporting
         systems, such as time and attendance, labor distribution, reduction-in-
         force, and security clearance systems. The absence of integrated
         systems inhibited the Department's ability to access, analyze and report


Page 5                                                         Details of Finding
         data from different and diverse systems. For instance, agency officials
         told us that considerable time was expended compiling data from the
         various HR related systems for reporting to OPM.

         Despite CHRIS implementation, a number of redundant HR related
         information systems remained in use.1 As indicated in our report on
         Corporate and Stand-Alone Information Systems Development (DOE/
         IG-0485, September 2000), and as recognized in the Department's study
         of the CHRIS project's return on investment, various Department
         elements continued to develop and maintain many redundant,
         stand-alone systems even though efforts were in progress to develop
         corporate level systems. At the time of our audit, Departmental
         components reported that they continued to use about 50 separate
         systems to store, retrieve, and manipulate HR data. These systems were
         used for such purposes as maintaining training information, processing
         personnel actions, and tracking awards and grievances. The systems
         ranged in size from small, personal computer databases to large client/
         server databases that serve the entire office or Departmental element.

                                      Information Security

         CHRIS had computer security weaknesses that increased the risk of
         unauthorized access or malicious damage to data, programs or system
         software. Based on discussions and tests, we identified a number of
         implementation or design deficiencies that may render CHRIS
         vulnerable to compromise. Specific problems and the possible
         consequences are outlined below:

               •   Personnel specialists, training coordinators, programmers and
                   others with access to CHRIS were not required to change their
                   passwords or prevented from using identical passwords and
                   commonly used names. Because of their sensitivity,
                   additional password weaknesses were reported directly to
                   project management, but are not reported here. During our
                   review, the Department informed us that they were in the
                   process of acquiring software to strengthen password security.

              •    Security software had not been installed or procedures
                   established to regularly review system access and suspend
                   access for users that had not used the system within a specified
                   period of time.


         1
          The OIG, Office of Inspections, is conducting a separate inspection of Savannah
         River's development of a human resource and training system that duplicated planned
         CHRIS features.

Page 6
                                                                       Details of Finding
                          •   Authorization forms were not always available to support the
                              need for users to access sensitive data and programs. Based on
                              a sample of user authorization forms, we determined that 8 of
                              the 41 users (approximately 20 percent) did not have forms on
                              file. Without formal access authorization forms, there was no
                              assurance that access granted was consistent with established
                              policies and procedures and that such access was needed to
                              perform the duties and responsibilities of the user. Subsequent
                              to our review of authorization forms, the Department moved to
                              suspend access for approximately 200 users that did not have
                              approved access authorizations and now specifically requires
                              that access requests be approved in writing.

                          •    The Department did not require background investigations on
                               contract personnel who had access to personal and sensitive
                               data in CHRIS.

                          •    Access or accountability over system and backup media
                               containing sensitive data was not adequately controlled.
                               Accountability records were not maintained and the media
                               were stored in an unlocked cabinet available to anyone with
                               access to the computer facility.

Requirements for      The Paperwork Reduction Act of 1995, the Clinger-Cohen Act of 1996,
Application Systems   the Federal Financial Management Improvement Act of 1996, and
Development           related Federal guidance lay out a number of requirements and
                      guidelines designed to help Federal agencies manage their investments
                      in information technology (IT), including systems development. The
                      Paperwork Reduction Act is the "umbrella" IT legislation for the
                      Federal government, while the Clinger-Cohen Act requires that Federal
                      agencies establish a disciplined approach to managing and investing in
                      IT resources. The Paperwork Reduction Act, the Clinger-Cohen Act,
                      and related Federal guidance require the head of the executive agency
                      to design and implement a process for maximizing the value and
                      assessing and managing the risks of IT acquisitions. In general,
                      Departmental regulations and guidance incorporate, amplify and
                      supplement Federal systems development requirements. Among other
                      things, the requirements cited above and the Computer Security Act of
                      1987 require the Federal agencies to:

                           • Establish a rigorous planning and investment process for
                             managing information system projects throughout their
                             lifecycle, that includes:



Page 7                                                                  Details of Finding
              o developing a multi-year plan to provide a roadmap for
                 major information systems investments,

              o conducting a cost/benefit analysis that demonstrates a
                projected return on investment that is clearly equal to
                or better than alternatives,

              o reducing risk by avoiding or isolating the use of
                custom-designed components,

              o using fully tested pilots, simulations, or prototype
                implementations before going to production,

              o establishing clear measures and accountability for
                project progress, and

              o revisiting and revising the project's planning
                documents and cost/benefit analysis, as necessary,
                when significant scope changes occur.

         • Implement and maintain systems that comply substantially
           with Federal financial management system requirements.
           Specifically, systems are to be integrated with existing
           systems and should automate HR management activities,
           such as position management and classification,
           recruitment and staffing, and work force deployment.

         • Implement security measures to protect confidential and
           sensitive data in computer systems. Agencies are required
           to prepare risk assessments to estimate the potential losses
           to which systems are exposed, evaluate the threats, and
           select from safeguard alternatives on the basis of cost
           justification.




Page 8                                               Details of Finding
Planning and System    CHRIS development and implementation efforts have been adversely
Development Issues     affected because the Department did not adhere to certain project
                       planning requirements and generally accepted best practices for system
                       development projects as required by the Clinger-Cohen Act of 1996.
                       For example, while the Department had developed high-level project
                       plans, the supporting schedules necessary to manage and direct project
                       implementation were insufficiently detailed. The schedules did not
                       consistently define the goals and key deliverables for each phase of the
                       project, the necessary resources, and the intermediate project
                       milestones, including management and technical reviews. The
                       Department also had not performed a risk assessment to identify
                       vulnerabilities and mitigate risks prior to preparing the CHRIS security
                       plan. Despite project delays, cost increases and substantial project
                       scope changes, the CHRIS cost/benefit analysis and its strategic project
                       plan were never revised.

                       In addition, a lack of specific performance measures for each phase of
                       the CHRIS project also impacted the Department's implementation
                       effort. While the Department had established certain performance
                       measures related to CHRIS as required by the Government Performance
                       and Results Act (GPRA) of 1993, such measures addressed high-level
                       goals such as the elimination of paper processes and were not
                       specifically directed to development and implementation activities. The
                       lack of specific, quantifiable goals related to key deliverables for each
                       phase of the project deprived management of the ability to adequately
                       monitor progress. Without such goals, project management and
                       high-level management officials could not maintain visibility over the
                       substantial schedule slippages and cost increases associated with the
                       project.

CHRIS Implementation   Despite the investment of about $11.6 million in development and
Status                 acquisition costs and over four years of effort, the Department had not
                       fully implemented CHRIS. Key components such as payroll, time and
                       attendance, and labor distribution had not been implemented. In
                       addition, the Department had no immediate plans to implement other
                       planned system features such as awards tracking and appraisal
                       processing. The Department anticipates that the full implementation of
                       CHRIS, consisting of an integrated HR/Payroll system, will not be
                       completed until fiscal year 2005, six years later than originally
                       forecasted. Total cost estimates have also increased substantially, from
                       $8 million to $20.4 million, an increase of 155 percent over original
                       estimates. Because of implementation delays and projected cost
                       overruns, it is unlikely that the Department will achieve its original
                       estimate of approximately $9.6 million in savings over six years.


Page 9                                                                      Details of Finding
                   As indicated in our recent report on corporate-level systems, we support the
                   deployment of such systems as a method of promoting efficiencies and
                   eliminating duplicative, site-specific information systems. While we
                   recognize that there are many challenges associated with the
                   implementation of major commercial off-the-shelf applications, adherence
                   to systems development requirements and best practices is essential for
                   successful deployment. We have proposed recommendations that we
                   believe will aid the Department in satisfying its objective of deploying a
                   fully integrated human resources/payroll system.


RECOMMENDATIONS    To help ensure successful completion of the CHRIS project, we
                   recommend that the Chairperson for the Executive Committee for
                   Information Management require the:

                       1. Completion of systems development and implementation activities
                          necessary to ensure project completion, including:

                                • Preparation of an updated strategic project plan
                                  establishing specific performance measures, with
                                  associated deliverables, for completion of all remaining
                                  CHRIS development and implementation tasks;

                                • Preparation of an updated cost/benefit analysis;

                                • Accurate accounting of all project costs; and

                                • Correction of the various computer security weaknesses
                                  identified.

                       2. Establishment of specific, quantifiable goals for key deliverables in
                          all project phases, as required by GPRA.


MANAGEMENT         Management generally concurred with the findings and recommendations,
REACTION           and described corrective actions designed to address the conditions
                   described in the report. Management's comments have been included in
                   their entirety in Appendix 3.


AUDITOR COMMENTS   Management's comments are generally responsive to our recommendations.




Page 10                                                             Recommendations and
                                                                    Comments
Appendix 1


SCOPE         The audit was performed between February and November 2000 at
              Departmental Headquarters in Washington, D.C. and Germantown,
              Maryland; the National Energy Technology Laboratory in Morgantown,
              West Virginia and Pittsburgh, Pennsylvania; the Office of Personnel
              Management; and the National Institutes of Health. We evaluated the
              project's goals and objectives, examined how the CHRIS system
              development and implementation project was carried out, and examined
              opportunities for improving the planning and implementation of the project.
              We also reviewed system security and measured data accuracy by
              examining CHRIS data from December 1999 and February 2000.


METHODOLOGY   To accomplish our objective, we:

                   • Reviewed applicable laws and regulations pertaining to system
                     development, including system requirements published by the
                     Joint Financial Management Improvement Program. We also
                     reviewed reports by the Office of Inspector General, the General
                     Accounting Office, and various task forces and advisory groups.

                   • Reviewed best practices contained in guidance issued by the Office
                     of Management and Budget, the National Institute of Standards
                     and Technology, the General Accounting Office, the Carnegie
                     Mellon University Software Engineering Institute, and others.

                   • Reviewed numerous documents related to the development and
                     implementation of CHRIS, including the Strategic Information
                     Management Project Results and Business Case Analysis and the
                     Project Plans.

                   • Held discussions with program officials and personnel from
                     numerous Departmental offices, including the Office of Chief
                     Information Officer, the Office of Chief Financial Officer, and the
                     Office of Management and Administration.

                   • Held discussions with various officials, staff, and contract
                     personnel at the National Energy Technology Laboratory.

                   • Held discussions with officials of the Office of Personnel
                     Management and reviewed the automated time and attendance
                     system used by the National Institutes of Health.




Page 11                                                       Scope and Methodology
          We used advanced audit techniques to assess data reliability and network
          security. We obtained CHRIS data in electronic form and used computer
          assisted audit techniques to identify anomalies. We also compared selected
          CHRIS data elements to source documents at Departmental Headquarters in
          Washington, D.C. and Germantown, Maryland. While we did note some
          data inaccuracies, we determined that the data was sufficiently reliable for
          the purposes of our audit. Scanning software was used to determine
          whether the networks on which CHRIS operated were vulnerable to
          penetration by malicious or unauthorized users. Our limited tests
          determined that the networks had some minor vulnerabilities and we shared
          this information with the CHRIS project team.

          The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included tests of
          internal controls and compliance with laws and regulations to the extent
          necessary to satisfy the audit objective. Accordingly, we assessed internal
          controls regarding the development and implementation of automated
          systems. Because our review was limited, it would not necessarily have
          disclosed all internal control deficiencies that may have existed at the time
          of our audit. Management officials waived a formal exit conference.




Page 12                                                    Scope and Methodology
Appendix 2

                        RELATED OFFICE OF INSPECTOR GENERAL,
                    GENERAL ACCOUNTING OFFICE, AND OTHER REPORTS

    This review concerned the Department's efforts to design and implement the CHRIS system.
    Prior related Office of Inspector General, General Accounting Office, and other reviews include:

          •   Corporate and Stand-Alone Systems Development, (DOE/IG-0485, September 2000).
              Duplicative and redundant information systems existed or were under development at
              virtually all organizational levels within the Department. Despite efforts to implement
              several corporate level applications, such as CHRIS, many organizations continued to
              invest in custom or site-specific development efforts that duplicated corporate
              functionality. The Department has been unable to control development and eliminate
              duplicative systems because it has not fully developed and implemented an application
              software investment strategy. As a result, the Department has spent at least
              $38 million on duplicative information systems.

          •   Unclassified Computer Network Security at Selected Field Sites, (DOE/IG-0459,
              February 2000). Six Departmental sites had significant internal or external
              weaknesses that increased the risk that their unclassified computer networks could be
              damaged by malicious attack. The OIG pointed out the need for correcting
              vulnerabilities found and establishing specific goals and performance measures for
              improving the level of unclassified computer security relating to network operations.

          •   Audit of the Department's Integrated Payroll/Personnel System, (AP-FS-97-01,
              May 1997). The report noted that there were limitations in the controls over the storage
              of magnetic media and that access to the system was not sufficiently monitored. Based
              on known deficiencies in the system, the Department planned to obtain human
              resources information services from another Federal agency via cross-servicing
              agreements.

          •   Audit of Selected Aspects of the Unclassified Computer Security Program at a DOE
              Headquarters Computing Facility, (AP-B-95-02, July 1995). The report stated that
              weaknesses in the computer security program at Headquarters increased the risk of
              unauthorized disclosure or loss of sensitive data, including data residing on
              PAY/ PERS. These weaknesses occurred because a risk assessment had not been
              performed on the facility and security officials had not adequately monitored activities on
              the systems within the facility.

          •   Information Technology: Selected Agencies' Use of Commercial Off-the-Shelf Software
              for Human Resources Functions, (GAO/AIMD-00-270, July 2000). The report examined
              five agencies' projects in implementing commercial off-the-shelf software to improve
              their HR functions. The report cited expected quantifiable and non-quantifiable benefits
              reported by the agencies. However, four of the five agencies' projects have encountered
              delays and three agencies have increased their project cost estimates.


Page 13                                                                                    Prior Reports
          •   Information Security: Software Change Controls at the Department of Energy, (GAO/
              AIMD-00-189R, June 2000). GAO's letter stated that, among other things, contractor
              personnel involved in the Department's software change control process did not routinely
              receive background screenings at all Departmental components. GAO recommended that
              the Department review its software change control process and implement any needed
              changes.

          •   Department of Energy: Need to Address Longstanding Management Weaknesses, (GAO/
              T-RCED-99-255, July 1999). GAO highlighted systemic problems with respect to project
              management in the Department. For example, GAO testified that the Department
              conducted 80 projects from 1980 through 1996 that were designated as "major system
              acquisitions." GAO pointed out that 31 of the projects had been terminated before
              completion after expenditures of over $10 billion. Only 15 of the projects were completed
              and most of them were finished behind schedule and with cost overruns.

          •    Department of Energy: Better Information Resources Management Needed to Accomplish
               Missions, (GAO/IMTEC-92-53, September 1992). GAO stated that the Department
               wasted resources developing and operating systems that overlapped or duplicated existing
               information systems. This practice is wasteful because the agency spends funds to
              develop and operate systems that perform the same or similar functions.

          •   Improving Project Management in the Department of Energy, National Research Council
              (1999). The study stated that the Department had extensive project management
              weaknesses primarily attributable to the Department's culture, which fostered a
              decentralized organization structure. The study cited, among other things, a general lack
               of accountability and unclear lines of authority in the Department's project management.
              The study also noted that major projects require consistent and focused management
               attention.




Page 14                                                                               Prior Reports
Appendix 3




Page 15      Management Comments
Page 16   Management Comments
Page 17   Management Comments
Page 18   Management Comments
                                                                IG Report No. : DOE/IG-0494

                             CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name _____________________________            Date __________________________

Telephone _________________________           Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                                    Department of Energy
                                   Washington, DC 20585

                                 ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
  The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
                  through the Internet at the following alternative address:


             U.S. Department of Energy Office of Inspector General Home Page
                                 http://www.ig.doe.gov
